<html>
<title> - THE RISING STAKES OF REFUGEE ISSUES IN CHINA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
              THE RISING STAKES OF REFUGEE ISSUES IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                  U.S. GOVERNMENT PRINTING OFFICE
50-716                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                             C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Reid, Toy, Senior Research Associate, Congressional-Executive 
  Commission on China............................................     1
Charny, Joel, Vice President for Policy, Refugees International..     3
Scholte, Suzanne, North Korean Refugee expert; President, Defense 
  Forum Foundation; Chairman, North Korean Freedom Coalition.....     5
Markey, Mary Beth, Tibetan Refugee expert; Vice President for 
  Advocacy and Communications, International Campaign for Tibet..     7
Roberts, Sean R., Uyghur Refugee expert; Associate Professor of 
  the Practice of International Affairs, The George Washington 
  University.....................................................    10


              THE RISING STAKES OF REFUGEE ISSUES IN CHINA

                              ----------                              


                          FRIDAY, MAY 1, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:27 
a.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Toy Reid, Senior Research Associate; Steve 
Marshall, Senior Advisor; and Kara Abramson, Advocacy Director.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. Good morning. My name is Charlotte 
Oldham-Moore. I am the Staff Director for the Congressional-
Executive Commission on China. It is terrific to have all of 
you here today.
    For those of you who are not familiar with the Commission, 
please visit our Web site. We are at www.cecc.gov. We post 
daily analysis on rule of law and human rights developments, as 
well as an annual review on human rights and rule of law 
developments in China, plus transcripts of roundtables and 
hearings.
    Today's roundtable is ``The Rising Stakes of Refugee Issues 
in China,'' a little-explored issue and a very important one, 
so I am delighted that we are doing this today.
    Douglas Grob, my colleague who usually hosts these with me, 
is at a conference, so we are very pleased to have our Senior 
Research Associate, Toy Reid, and he will take it from here. 
Thank you.

       STATEMENT OF TOY REID, SENIOR RESEARCH ASSOCIATE, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Reid. Thank you, Charlotte. And thanks to all of you 
for joining us here today.
    The focus of today's roundtable is an important one, not 
only because the issue of refugees is so often overlooked in 
conversations about China's growing role in the international 
system, but also because it provides a useful test case. What, 
if anything, does China's record with regard to fulfilling its 
obligations to refugees tell us about its general willingness 
to comply with international laws and norms?
    China has reaped substantial benefits from its integration 
into the international system and its power and influence 
within the system continue to rise. But questions remain 
regarding the strength and depth of China's commitment to key 
aspects of the international system and whether it will seek to 
reshape the system in ways that might modify or dilute 
longstanding norms and practices.
    For these and other reasons, the Commission is drawn to 
consider the question of whether China has made progress toward 
fulfilling its obligations to refugees under international law. 
Within this discussion, North Korea looms large. North Korea's 
neighbors such as China, and other interested nations such as 
our own, struggle to respond effectively to North Korea's 
unparalleled human rights abuses and chronic humanitarian 
crises, ranging from persistent hunger and periodic starvation 
caused by the use of food distribution as a political tool, to 
the extreme punishments that the regime metes out to those whom 
it perceives as disloyal to it, especially repatriated 
refugees. The Commission found, in its 2008 Annual Report, that 
the Chinese authorities have stepped up efforts to locate and 
forcibly repatriate North Korean refugees who have fled to 
China.
    Moving in the opposite direction, each year Tibetans leave 
China and risk the dangerous crossing over Himalayan passes to 
seek asylum in India and elsewhere. If Chinese authorities 
intercept them en route to the border they may face detention, 
and sometimes torture.
    Those who successfully cross into Nepal often face forcible 
repatriation back to China. Uyghurs fleeing government 
repression in the Xinjiang Uyghur Autonomous Region also face 
similar risks and barriers to asylum, often under the sway of 
Chinese Government pressure on neighboring countries to refuse 
refugee status, to impede access to local asylum proceedings, 
and to forcibly refoul them.
    Our distinguished panelists will now offer their thoughts 
and observations on these, and other issues.
    To my left, Joel Charny. Mr. Charny is Vice President for 
Policy at Refugees International, where he oversees the 
organization's Policy & Advocacy Program. Mr. Charny has 
conducted humanitarian assessment missions to various troubled 
regions around the world, including the Chinese border with 
North Korea. He is the author of ``Acts of Betrayal: The 
Challenge of Protecting North Koreans in China,'' and a host of 
other articles on humanitarian issues published in outlets such 
as the New York Times, The Economist, and the Asian Wall Street 
Journal.
    Also to my left is Suzanne Scholte. Ms. Scholte is the 
President of the Defense Forum Foundation, a nonprofit 
organization that sponsors educational programs on foreign 
affairs, national security, and human rights issues. She was 
the recipient of the 2008 Seoul Peace Prize for her work on 
North Korean human rights issues and her work with Western 
Sahara refugees. She also serves as the chairman of the North 
Korea Freedom Coalition and the vice chairman of the Committee 
for Human Rights in North Korea.
    To my right is Mary Beth Markey. She is the Vice President 
for International Advocacy at the International Campaign for 
Tibet [ICT]. She has worked at ICT since 1996, where she 
coordinates its international government advocacy and field 
research in Nepal and India. She is the recent recipient of a 
Human Rights Press Award from the Far Eastern Economic Review 
and the Hong Kong Foreign Correspondents Club for her article, 
``Tibetans' Uncertain Future in Nepal.''
    And, finally, to my right is Dr. Sean Roberts. Dr. Roberts 
is the director of the International Development Studies 
Program and an Associate Professor at the George Washington 
University's Elliot School for International Affairs. He has 
spent significant time conducting research in Uyghur 
communities in both China and central Asia, and is the author 
of numerous articles and a documentary film on the Uyghurs 
along the Pakistan-China borderland. He earned his doctorate in 
Social Anthropology at the University of Southern California.
    So, thank you to all of you for coming, and we will start 
with Joel.

 STATEMENT OF JOEL CHARNY, VICE PRESIDENT FOR POLICY, REFUGEES 
                         INTERNATIONAL

    Mr. Charny. So, good morning. Welcome. It is good to see--I 
gather there are many North Koreans here, so that is very good.
    I want to thank Charlotte and the staff of the Commission 
for inviting me to be a part of this session. I am afraid I 
made a presentation on North Korean refugees in China to the 
Commission in 2005 and I wish I could say that the situation 
has improved, but I think basically when it comes to China we 
are facing the same problems and obstacles that we faced then.
    Now, my role this morning is to place China's response to 
refugees within the overall context of its international legal 
obligations and put its response to North Koreans in particular 
within the context of China's approach to other refugees and 
asylum-seekers. So, Suzanne is going to be the one to really 
focus on conditions for North Koreans, and I am going to try to 
put that more in context.
    China is a signatory of the 1951 Convention Relating to the 
Status of Refugees and its 1967 Protocol, acceding to both in 
September 1982. This, in and of itself, is positive and must be 
seen in the context of other major Asian countries that have 
refused to become a states party to the convention, including 
India, Thailand, and Malaysia. China is also a member of the 
Executive Committee of the Office of the UN High Commissioner 
for Refugees [UNHCR], again reflecting what you were referring 
to about China's increasing status in the world and their 
ability to use that status within international institutions.
    The largest refugee flow faced by China was that of 
Vietnamese of Chinese ethnicity who fled Vietnam in 1979 at the 
time of China's border war with Vietnam. Vietnamese fled across 
the border to southwest China, as well as by boat to Hong Kong, 
then a British colony. About 260,000 Vietnamese received asylum 
in China. The community now numbers 300,000. They are fully 
integrated into China and exercise many of the rights of 
citizens, but they do not have formal citizenship.
    In 2006, the High Commissioner for Refugees, Antonio 
Guterres, visited the Vietnamese refugee communities--I am 
going to mangle the pronunciation--in Guangxi Zhuang Autonomous 
Region and judged them one of the best examples of successful 
integration anywhere in the world. So the point is, China has 
shown, in the case of Vietnamese refugees, that they can abide 
by their international obligations. In their dialogue with the 
Office of the High Commissioner, they often point to that 
example and they have been working with UNHCR also on improving 
and doing training on Chinese refugee law.
    So this positive example makes that of China's treatment of 
North Koreans even more egregious. The Chinese know full well 
and firsthand the horrible human rights and humanitarian 
situation prevailing in North Korea. They know that North 
Koreans are severely punished upon deportation. Nonetheless, 
China is adamant that North Koreans fleeing into northeast 
China are illegal economic migrants. They frequently arrest and 
deport individual asylum-seekers with no regard for breaking up 
families and separating children from their parents.
    The Chinese authorities categorically refuse to allow UNHCR 
to visit the region where North Korean refugees are present. 
They harass and detain institutions that attempt to provide 
protection and assistance to the asylum-seekers, especially 
Christian missionaries and individuals who attempt to 
facilitate the access of North Koreans to South Korea through 
broker networks.
    Now, I worked on this issue for four years on behalf of 
Refugees International. I made one visit and a colleague made 
another, so we made two assessment missions to the border 
region, but we were never able to pursue a dialogue with the 
Chinese authorities on this matter.
    Now, at the local level where Chinese of Korean ethnicity 
are in the majority, officials did allow a few support 
organizations to operate legally and the deportation orders 
usually came from the center, reflecting overall geopolitical 
interests. They did not tend to come from local officials. We 
struggled in terms of the awareness raising, which I think begs 
the question that presumably we are all going to address, which 
is what works?
    What strategy with China is going to work? The more 
confrontational strategies of having high-profile movement of 
North Koreans into consulates in Beijing, some of the other 
global campaigning work, it raised consciousness about this 
issue but it also forced the hand of the Chinese; it forced 
them to respond, it embarrassed them. As we know, the Chinese 
tend not to respond very well to being embarrassed.
    I still have the same recommendations on China that I had 
four years ago. I do not see any reason to change them. The 
Chinese need to stop deportations, they need to grant temporary 
humanitarian status to North Koreans and allow their children 
to attend school, they need to grant citizenship to North 
Koreans with Chinese spouses and their children, they need to 
crack down on the trafficking of North Korean women, and they 
need to allow UNHCR to assess the situation and make 
recommendations to the Chinese Government as to how to proceed.
    I think the problem fundamentally is finding the right 
people to engage with in China to pursue this very modest 
agenda. There should be a way to put this in the framework of 
China's international legal obligations, but to my knowledge, 
as with many human rights issues related to China, a meaningful 
and sustained dialogue has never taken place. Thank you.
    Ms. Oldham-Moore. Thank you, Joel.
    Suzanne, please.

  STATEMENT OF SUZANNE SCHOLTE, NORTH KOREAN REFUGEE EXPERT; 
  PRESIDENT, DEFENSE FORUM FOUNDATION; CHAIRMAN, NORTH KOREA 
                       FREEDOM COALITION

    Ms. Scholte. I am deeply grateful to Charlotte and Toy for 
organizing this roundtable as part of North Korea Freedom Week 
and to give me the opportunity to talk about the North Korean 
refugees in China. I also want to express my appreciation to 
the fact that they have always taken the time to meet with 
witnesses that we have brought to Washington over the years.
    As Joel has pointed out, under international law China is 
obligated not to repatriate North Korean refugees because every 
North Korean who is forced back to North Korea by China is 
tortured and imprisoned. Those who are found to have crossed 
more than once or have been in contact with Christians can be 
publicly executed.
    China established a policy even to fine and jail their own 
citizens, as well as humanitarian workers who provide food and 
shelter to the refugees. In fact, here today at this hearing we 
have Steve Kim. If you could stand, Steve, just for a minute. 
Steve Kim of Huntington, NY. He was jailed for four years 
because he was caught rescuing North Koreans.
    By refusing to abide by its international agreements and in 
jailing humanitarians who try to help North Korean refugees, 
China is directly responsible for creating a horrific human 
rights crisis. Over 80 percent of North Korean females have 
been victims of trafficking, while men are treated as slave 
laborers. The shortage of women in China has created a demand 
for North Korean females and human traffickers are luring them 
into China to sell them.
    I have with me two women who are examples of what thousands 
of North Korean women are facing and I am just going to ask 
Mrs. Kim Young-Ae if she could just stand for a moment. This is 
Mrs. Kim Young-Ae. Her husband died in an accident when she, 
her son, and her parents were already at the brink of 
starvation. Lured to China by a trafficker who promised her a 
job as a nanny, she crossed the Yalu River, only to be met on 
the other side by a trafficker who took her to Liaoning 
Province to be sold to a mentally unstable Chinese pig farmer 
for $733.
    According to Mrs. Kim, ``I had to live a life of hell, for 
he threatened that he would hand me over to the Chinese police 
if I said or did anything that displeased him.'' Mrs. Kim gave 
birth to a daughter, which gave her the only comfort she knew 
as she worked as a slave laborer by day and was beaten and 
abused at night by her so-called husband, who kicked her so 
hard he damaged her teeth. One day, her daughter, while under 
the care of her mother-in-law, drowned in a stream in front of 
the house. Her daughter had not yet even learned how to walk.
    Mrs. Kim, filled with guilt, fled in the night, only to be 
caught again by a human trafficking gang who sold her to a 
farmer in a rural village in Henan Province. The farmer told 
Mrs. Kim he had bought her for $1,100. Unable to speak the 
language or adjust to the food, she suffered serious medical 
problems and she ended up begging the trafficker who had sold 
her to take her away. Of course he was glad to do this, and he 
sold her again to a handicapped man. She finally escaped to 
South Korea in 2007.
    Mrs. Bang Mi-Sun is another witness. If you could just 
stand. Ms. Bang Mi-Sun's husband starved to death during the 
famine. Afraid that the rest of her family might starve, she 
and her son and daughter crossed the Tuman River in June 2002. 
She said, ``I thought I would be able to feed my children once 
I got to China, but what was really waiting for us was the 
possibility of arrest and forced return to North Korea by the 
Chinese police. Just as I was ready to do anything that would 
guarantee my children's safety, a Chinese trafficker appeared 
and began to threaten me, using my children's vulnerability. In 
the end, I was sold for $586 and taken to a place called 
Heilong. The Chinese brokers called us North Korean women 
`pigs.' ''
    There were many North Korean women with Mrs. Bang and she 
was sold first as the ``best pig.'' The person who bought her 
then sold her to his relative in Shangdong Province. Her new 
husband was 15 years her senior and treated her as a beast of 
burden, constantly stressing how he had bought her for an 
enormous sum of $1,025. While the man who bought her was out of 
the house, a group of people stormed in and took her to be sold 
again. In addition to the traffickers, there are also vicious 
brokers who steal North Korean women only to resell them.
    This time she was sold to a man over 10 years younger than 
she; he was 34 and she was 48. He demanded that she bear him a 
child. When he found out that she had a contraceptive device, 
he brought in an obstetrician and had the members of his family 
hold her down while the obstetrician brutally tore the 
contraceptive device out of her body. This caused her to be 
bedridden for a month.
    She fled the house, but soon was arrested by the Chinese 
police and forced back to North Korea to a labor camp in Musan, 
where she was forced to do intensive physical activity. When 
she fell in exhaustion, the North Korean guards beat her with a 
bludgeon on her leg, permanently disabling her.
    After the labor camp, she was sent to a detention facility 
where she witnessed the guards force a pregnant repatriated 
North Korean to lose her baby by putting a plank on her belly 
and forcing the other inmates to stand on it. Then Mrs. Bang 
was sent to a political prison camp where she witnessed the 
terrible suffering of other North Koreans; all of this because 
they both wanted to feed their children.
    The stories of these two women are typical of what is 
happening right now in China, and right now North Koreans are 
facing a tragedy that seems to never end: starvation in North 
Korea, leading them to flee to China; abuse and inhumane 
treatment in China, and then punishment and torture when China 
forces them back to North Korea.
    How can Hu Jintao continue to placate Kim Jong Il with this 
repatriation policy? Kim Jong Il has shown his racist contempt 
for the Chinese people because he has ordered his border guards 
to force North Korean women to abort their babies because they 
are half Chinese.
    The Chinese Government, and even U.S. policymakers, have an 
unfounded fear that if China showed compassion to the refugees, 
China would be flooded with refugees, which would lead to the 
collapse of the North Korea regime. This fear is not only 
unfounded, but it is prolonging the suffering.
    To end this crisis, China should allow them safe passage 
because, unlike any refugee crisis in the world today, North 
Koreans have a place to go as they have automatic citizenship 
under the South Korean Constitution. Second, they should let 
the UN High Commissioner for Refugees do their job. Third, they 
should work with the humanitarian community rather than jailing 
them. The United States and other countries in the region 
should establish a First Asylum policy for North Korean 
refugees, as was done to save the Vietnamese boat people.
    In February, I met a woman named Mrs. Ko Mae Hwa, who fled 
to China with her 16-year-old daughter. While they were 
separated, her daughter was caught by Chinese police and forced 
back to North Korea, where she was beaten to death by North 
Korean border guards. It is hard to imagine that people could 
beat a 16-year-old girl to death who was simply trying to find 
her mother.
    As Mrs. Bang has said, ``I realized that there was a world 
where human beings were bought and sold and that people could 
show such cruel shamelessness. If someone does not wipe their 
tears, heal their wounds, and help them regain their human 
dignity, female refugees will continue to be sold like pigs in 
China. They will never know life's happiness. How long can we 
let this barbaric situation continue, especially when all the 
solutions are right at hand? ''
    I thank you for the opportunity to address this issue.
    Ms. Oldham-Moore. Now to Mary Beth Markey, who is going to 
explore the challenges facing Tibetan refugees who seek to 
leave China.

  STATEMENT OF MARY BETH MARKEY, TIBETAN REFUGEE EXPERT; VICE 
   PRESIDENT FOR ADVOCACY AND COMMUNICATIONS, INTERNATIONAL 
                       CAMPAIGN FOR TIBET

    Ms. Markey. Thank you, Charlotte.
    I first want to express my deep sympathy to the Korean 
women who were referred to in the testimony this morning. My 
heart goes out to you, and I hope you are able to find some 
peace in your life now.
    It occurs to me, before I start my testimony, that China's 
strong resistance to cooperating on the Korean refugee issue or 
to provide refuge, even temporary refuge to the Korean 
refugees, should be considered also in relation to their policy 
concerning Tibetan refugees. I hope my testimony will help 
illuminate why that may be the case.
    The measures that China has in place to deal with Tibetan 
asylum-seekers are primarily internal, but the Chinese 
Government has increasingly sought to contain its Tibetan 
refugee problem through its engagement with Nepal, making the 
Tibet issue the defining element of its bilateral relations.
    The reasons that Tibetans flee are predictably similar. 
Parents send their children for an education, monks and nuns 
seek religious freedom, and nomads separated from their 
traditional livelihoods hope to find a future and an 
affirmation of their Tibetan identity in exile. Virtually all 
Tibetans say they wish to be near His Holiness the Dalai Lama.
    Somewhere between 2,500 and 3,500 Tibetans are registered 
each year by the UNHCR as Persons of Concern and provided 
assistance at the Tibetan Refugee Reception Center in 
Kathmandu. There have been unusual spikes in those numbers and 
we are now seeing a major decrease. Only 652 Tibetans arrived 
safely at the Kathmandu Reception Center last year.
    Depending on their point of origin, it can take months or 
weeks to make the journey out of Tibet, and the journey becomes 
more perilous in the approach to the Tibet-Nepal border where 
shelter, food, and water become scarce and frostbite, snow-
blindness, and other injuries are common. In this final leg, 
most Tibetan refugees pass through the glaciated Nagpa Mountain 
Pass, which rises nearly 19,000 feet above sea level west of 
Mt. Everest.
    Chinese border security is intense. Just six years ago, the 
main People's Armed Police Border Patrol station was some 25 
kilometers northwest of Nagpa Pass, but in 2003 the Chinese 
Government completed construction of a motorable road to a 
point just 6 kilometers north of Nagpa La. The Chinese 
Government also began to draw attention to its efforts to 
tighten border security. It made quite a show of commending 
border security for intercepting people attempting to flee the 
country while maintaining ``revolutionary spirit in a place 
with insufficient oxygen.''
    Further inside Tibet, a prison near Shigatse houses 
Tibetans caught en route. Former inmates report that there have 
been as many as 500 prisoners there at any time, nearly all 
caught at Nagpa La or near the Chinese-Nepal Friendship Bridge 
border crossing at Dram, which is the main commercial crossing 
at the Tibet-Nepal border.
    Most Tibetans serve from three to five months, during which 
time they receive beatings and are tortured regularly. They 
must perform hard labor, usually road building in and around 
Shigatse, and must sign, ultimately, a document that they will 
never again attempt to leave the People's Republic of China to 
go to India. According to Article 322 of the Chinese Criminal 
Law, such Tibetans are subject to imprisonment for ``secretly 
crossing the national boundary.''
    Chinese border police aggressively pursue Tibetans, 
including into Nepalese territory. In 2002 and 2005, border 
security fired on Tibetan refugees while they were attempting 
to cross over Nagpa La. In September 2006, a young Tibetan nun, 
Kelsang Namtso, was shot dead by Chinese border police on the 
Nagpa Pass. It was the first time that such an incident had 
been captured on video by international witnesses, climbers on 
near Mount Cho Oyu. The Chinese Government described the 
incident as ``normal border management.''
    Nepalese authorities stepped up border security 
dramatically following the protests in Tibet that began last 
spring and in the run-up to the Beijing Olympics last summer. 
Indeed, the border was virtually closed. Tibetans living near 
the border reported being harassed by Chinese security and 
photographed by Nepalese informers during this period. TAR 
Chairman Jumpa Punsok made a rare trip to the Tibet-Nepal 
border to congratulate security stationed there for their work 
in preventing ``splitism.''
    Responding to China's plans for its climbers to carry the 
Olympic Torch to the summit of Mt. Everest, Nepalese officials 
agreed to close down access for the 2008 spring climbing season 
and allegedly received a cash sum in the millions of dollars to 
compensate for the loss of revenue associated with such a 
massive disruption of the climbing season.
    Throughout the 1990s, Nepal authorities generally permitted 
Tibetans to enter Nepal and have assisted or directed them to 
the refugee center in Kathmandu, typically after they have been 
detained by border police and handed over to Nepal immigration 
officials. Nonetheless, incidents of forced repatriation at the 
border, and even from Kathmandu, have occurred periodically and 
often in exchange for even minor enticements from the Chinese. 
In 2003, Nepalese police were photographed carrying back cases 
of beer from the Tibetan side of the border following the 
refoulement of 18 Tibetan refugees.
    As pressure from the Chinese Government intensifies, 
Nepal's attitude regarding Tibetans entering or transiting its 
territory becomes markedly less welcoming. China quickly 
registered its Tibet position with the new Maoist-led 
government in Nepal, and Prime Minister Pushpa Kamal Dahal, 
a.k.a. Prachanda, reiterated his intention to support China on 
the Tibet issue and readily affirmed that Nepal would not be 
used by Tibetan separatists for any anti-Chinese activities. 
The new government in Nepal has also allowed Chinese diplomats 
extraordinary and extrajudicial influence in dealing with 
Tibetan issues in Nepal.
    Prachanda supported the Chinese Government's harsh 
suppression of Tibetans following the 2008 demonstrations, and 
in Nepal ruled out allowing the Tibetan Refugee Welfare Office 
and the 
office of the representative of His Holiness the Dalai Lama to 
reopen, both of which had operated in Kathmandu since the 
1960s. The two offices had been ordered closed in 2005 by King 
Gyanendra in an apparent quid pro quo for China's support when 
Gyanendra dismissed the democratic government in Nepal, fired 
the entire parliament, and assumed absolute control.
    Nepalese authorities adopted a zero tolerance approach to 
Tibetan protesters last year, and Nepalese police, on occasion, 
employed excessive force against the protesters, using canes to 
beat them. Chinese Embassy personnel were witnessed and 
photographed working behind police lines, guiding the handling 
of protests and arrests of demonstrators, even going so far as 
to direct the positioning of Nepalese police officers.
    In August, Nepal's Home Ministry announced that Tibetans 
residing in Nepal without legal documentation would face 
deportation, a response to Chinese pressure to put an end to 
Tibetan protesters demonstrating in front of the Chinese 
Embassy. Foreign embassies cautioned Prachanda that his 
inaugural appearance at the UN Security Council meeting in New 
York the next month might not go well if his government had 
just deported a large number of Tibetans to China. At the end 
of the year, China announced a substantial military assistance 
package to Nepal, at which time the Chinese deputy chief of 
staff said that his meeting with Nepal's Defense Minister had 
focused on border management and the One China policy.
    Last fall, small numbers of Tibetans began to attempt the 
crossing again. The repressive aftermath of the spring 
demonstrations and security crackdown, while checking movement 
across the Tibetan plateau, also means that more Tibetans will 
likely see no other alternative but to seek to escape Tibet.
    International Campaign for Tibet [ICT] offers the following 
recommendations for attention by the Congress and 
administration:
    First, China has proposed a friendship treaty to Nepal. 
Nepal, distracted with internal problems, has yet to respond, 
but there is talk that if the treaty does not move then Beijing 
will seek a narrower extradition treaty as a first step. There 
is concern that the China draft will seek to legitimize their 
position that the Tibetans in Nepal are illegal economic 
migrants, not refugees, and if adopted would undermine any 
protection that the Tibetan refugees currently have.
    The U.S. Government and its partners should take a clear 
position with the Nepal Government against any extradition 
treaty that would codify the PRC position, and at the stroke of 
a pen turn Tibetan refugees in Nepal into criminal illegal 
aliens and could lead to their extradition to China where they 
would face a credible fear of persecution.
    Second, the Tibetan Refugee Reception Center in Kathmandu 
is an essential lifeline for the refugees coming across the 
border and transiting through Nepal onward to India. It is also 
supported by U.S. Government funds. The center is likely to be 
the next target of Chinese pressure on Nepal. The U.S. 
Government and its partners must work to keep the reception 
center open. Closure would frustrate the ability of the UNHCR 
to offer protection and expose Tibetans fleeing through Nepal 
to exploitation and refoulement.
    Thank you.
    Ms. Oldham-Moore. Thank you, Mary Beth.
    Sean Roberts, to speak on the challenges facing Uyghur 
refugees who leave Xinjiang.

STATEMENT OF SEAN R. ROBERTS, UYGHUR REFUGEE EXPERT; ASSOCIATE 
PROFESSOR OF THE PRACTICE OF INTERNATIONAL AFFAIRS, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Roberts. Thank you. I think perhaps the audience is 
less knowledgeable about the situation of Uyghurs than some of 
the other situations of others who have been discussed thus 
far, so I am going to talk both about why many Uyghurs seek 
political asylum and about the challenges that they face in 
doing so.
    To understand why so many Uyghurs seek political asylum 
outside of China, one must first understand the position of 
Uyghurs in their homeland within the Chinese state. For those 
unfamiliar with the Uyghurs, they are a Muslim minority who 
live primarily in China's northwest and speak a Turkic language 
closely related to the Uzbek language in the former Soviet 
Union.
    Much like the better-known Tibetans, Uyghurs are a minority 
within the Chinese state and have a distinct homeland located 
within the borders of the People's Republic of China [PRC]. 
Many, if not most, Uyghurs believe this homeland, which is 
presently called the Xinjiang Uyghur Autonomous Region of 
China, should be an independent state, or at the very least 
should have greater autonomy within the PRC. Much like Tibet, 
the Chinese state refutes these ideas.
    I would argue, however, that historically China has viewed 
Xinjiang as a buffer zone for their relations with neighbors to 
the west, and therefore this issue has not been as pronounced 
as it has become recently. Since the economic reforms of the 
1980s in China, Xinjiang has increasingly gained in importance 
to the PRC. For the first time, China has begun to seriously 
develop the region and to successfully convince Han Chinese 
migrants to move to the northwest voluntarily for economic 
opportunity. With the fall of the Soviet Union, Xinjiang has 
also become a trade gateway to the west for China, and in the 
context of China's growing economy, both a source of oil and a 
route through which to bring oil and gas from central Asia. All 
of these developments have suddenly made the Chinese state view 
Uyghur aspirations for sovereignty as a bigger threat to 
national security than at any time since the Sino-Soviet split 
of the 1960s.
    Since the early 1990s, therefore, Uyghurs have come under 
increasingly greater scrutiny from authorities for their 
political behavior and unsanctioned religious activity. 
Successive ``Strike Hard'' campaigns launched by authorities 
have targeted Uyghurs as suspected political criminals, guilty 
of aspirations to split China or to worship Islam through 
unofficial channels. As a result, thousands of Uyghurs have 
been imprisoned and tortured for their political and religious 
beliefs in the last 15 years, with scores of those being 
executed.
    These campaigns aimed at eradicating Uyghurs' desire to 
establish an independent state intensified after the September 
11 terrorist attacks on the United States, which has allowed 
the Chinese Government to now frame Uyghur political dissent as 
a terrorist threat. Even more troubling, in the aftermath of 
September 11 both the United States and the United Nations 
officially recognized a little-known Uyghur organization called 
the Eastern Turkistan Islamic Movement as a terrorist group in 
2002, despite the fact that there is no conclusive evidence of 
any organized terrorist acts perpetrated by Uyghurs inside or 
outside of China.
    As a result of this international recognition, which many 
believe was undertaken for political reasons to gain China's 
support in the war on terror, the Chinese state has felt that 
it now has an international mandate to crack down on Uyghur 
dissent without regard for human rights because Uyghurs have 
been recognized among the common enemies in the global war on 
terror.
    Inside China, this has made Uyghurs more vulnerable to 
political and religious repression than anytime in recent 
history. It does not mean that all Uyghurs are targeted by the 
state as terrorists, but it does mean that virtually any Uyghur 
is at risk of being deemed such, particularly if they publicly 
voice their political opinions or worship Islam outside state-
sanctioned mosques.
    This situation offers an obvious impetus for Uyghurs to 
seek political asylum outside of China and makes it difficult 
to distinguish who is and who is not deserving of refugee 
status, as international law stipulates, ``owing to fear of 
persecution on account of their political or religious 
beliefs.'' Furthermore, a Uyghur who has applied for political 
asylum but is denied is likely to be targeted by state organs 
on return to China, making such a denial a potentially lethal 
sentence for those who receive it.
    Unfortunately, these ethical issues regarding Uyghur 
refugee cases are not the only quandary the international 
community faces with regards to asylum-seekers. Uyghur refugee 
issues are further complicated by the overwhelming strength of 
China's so-called ``soft power'' around the world. China's 
growing leverage globally as the world's fastest-growing 
economy has allowed it to unduly influence the positions of 
other states. This phenomenon has received particular attention 
over the last several years as China has sought increasing 
influence in the developing world where it desires better 
access to energy sources and other raw materials needed to fuel 
its growing economy.
    But the decision of the United States to recognize a Uyghur 
terrorist group despite a lack of conclusive evidence suggests 
China may also be capable of influencing more developed 
countries, especially on an issue like the Uyghurs, which does 
not have any bearing on other countries' direct interests.
    China has continually used its soft power in this instance 
to 
influence other states to avoid taking Uyghur refugees. Perhaps 
the most visible example of this problem is the difficulty that 
the United States has had in finding countries to host Uyghur 
refugees who have been held in the Guantanamo detention 
facilities but have been cleared of any wrongdoing.
    But there are numerous other examples to draw from. In 
recent years, China has especially engaged countries that would 
naturally be sympathetic to the Uyghur cause, including Turkey, 
the Arab states, the central Asian states, and Pakistan, 
seeking to dissuade them of taking Uyghur refugees or allowing 
Uyghurs already living in these countries from advocating the 
Uyghur cause internationally.
    Furthermore, China's soft-power influence has not only been 
employed to discourage countries from taking asylum-seekers; it 
has also been used to make countries one might think would be 
sympathetic to the plight of the Uyghurs willingly extradite 
those who might qualify for political asylum back to China to 
face prison terms and/or execution. The most recent example of 
such extradition comes from Pakistan, which only this month 
extradited nine Uyghurs who are accused of being terrorists by 
the Chinese Government.
    But there are similar cases from the central Asian states, 
going back to the later 1990s. In fact, China initiated the 
Shanghai Cooperation Organization in the mid-1990s, at that 
time called the Shanghai Five Group, explicitly to influence 
the central Asian states not to harbor Uyghurs who advocated 
political views contrary to the positions of the Chinese state.
    The most troubling example from central Asia involves 
Hussein Jalil, a Uyghur with Canadian citizenship who was 
extradited to China by Uzbek authorities while he was visiting 
family in Uzbekistan in March 2006. He is presently serving a 
15-year prison term for his alleged involvement in terrorism. 
While the Canadian authorities have complained about this case 
to the Chinese Government, they have not been able to secure 
his release.
    In most of these cases of extradition, the country involved 
does not undertake any legal deliberation of the validity of 
the accusations against those they are returning to China; they 
merely take the word of the Chinese Government as valid in 
itself. Furthermore, in several cases of this kind I witnessed 
in Kazakhstan in the last decade, the UNHCR did little to 
prevent the extraditions. As one UNHCR official told me in the 
1990s, he felt extensive pressure from his home office on this 
issue, since the UNHCR was worried that spending its political 
capital on issues related to Uyghurs might jeopardize more 
important endeavors in which it was involved in China.
    In conclusion, therefore, I would like to advocate for more 
international recognition of this problem, and at the very 
least, more recognition of the problem within the U.S. 
Government. As China takes a more visible position in the 
international community, the problem is only likely to become 
larger and will continue to rear its head in countries 
throughout the world.
    Uyghur refugee cases must be considered consistently on 
their legal merits and not be subjected to political 
manipulation. Furthermore, the UNHCR, as a neutral 
international body, must take a more active role in advocating 
for objectivity and due process with regard to Uyghur refugee 
cases.
    Thank you.
    Ms. Oldham-Moore. Thank you, Sean.
    Now we turn to the question and answer portion of this 
morning's roundtable. For those of you who are new to the CECC, 
I want to just give you a quick background on how we handle 
this. There will be an official congressional transcript 
created from this event. Members of the audience are encouraged 
to ask questions. If you do not want your name used in the 
transcript, to be printed in the transcript, just let us know 
and it will not be. We will just have ``audience participant.''
    Another challenge we have had is voices. People are 
sometimes too shy for my taste. So when you get up to ask your 
question, please project. Judy Wright of our staff will also 
have a little, not a microphone, a little device that will help 
our transcriber hear your question.
    The first question for the panelists: As we see in the 
United States, rarely is a state's response, a government's 
response to 
refugees' challenges monolithic. Certainly in our country, in 
response to the Haitians and other refugee populations, we have 
had segments of our government respond differently or have 
different impulses.
    Joel commented that China had made positive developments, 
including being a signatory to the refugee convention, and 
joining the Executive Committee of the UNHCR. I was curious 
whether any of the other panelists in their areas of expertise 
also saw notable trends or developments from the government?
    Ms. Markey. No. No.
    Ms. Oldham-Moore. No split between the local and the 
central as Joel commented on the North Korean refugees. No?
    Ms. Markey. No. No. Nothing from the Chinese Government. In 
fact, I would be very--my judgment, based on the Tibetan 
refugee experience, on China's presence on the Executive 
Committee of the UNHCR, and even its signing of the 
International Refugee Covenant, is that signing a document has 
little to do with implementation. China is very eager to wield 
its influence in international fora, and I would say its 
involvement in these fora reflects its own strategic self-
interests. So, I am sorry, that is my perspective.
    Ms. Oldham-Moore. Sean, anything in terms of the Uyghur 
perspective?
    Mr. Roberts. Well, I guess since the refugee problem is 
part and parcel of the general state of relations with the 
Uyghur people, I would say that the one glimmer of hope you see 
is that the Chinese state is not only using a ``stick'' in 
terms of its control of Xinjiang, it is trying to establish 
various ``carrots'' to integrate the Uyghur population more 
into society.
    Unfortunately, I think that there is not enough input from 
the Uyghur population in terms of, what types of ``carrots'' 
they might like to be given. The Chinese state, for example, is 
providing more education to Uyghurs, but it is more education 
in Mandarin language and not more education in Uyghur. So, that 
can also be a divisive issue.
    Ms. Oldham-Moore. Okay. Thank you.
    Joel, anything? Suzanne?
    Mr. Charny. This is where I gather, at one point, Michel 
Gabaudan from UNHCR was going to be a respondent or part of the 
panel. I have talked to Michel privately about this. He was the 
UNHCR representative in Beijing, I think, for four or five 
years. From what he said, UNHCR is trying to pursue a sustained 
dialogue and advocate with the Chinese Government on these 
issues, and at various times they might get a commitment from 
an official that they are going to relax their policy or not 
arrest and deport people. But my feeling is, we just have not 
seen results.
    I mean, in the case of North Koreans, if anything--again, I 
haven't been to the border region now for a long time. But my 
understanding is, if anything, the policy is harsher now in the 
sense that they have really made an arrangement, they have cut 
a deal with the North Korean border guards and the military on 
the other side of the border to really limit the flow. I mean, 
that's their strategy right now. So given the continued 
deprivation in North Korea, that in effect is blocking asylum-
seekers. Then at the same time, as Suzanne said, they are 
continuing the harassment of the networks of people trying to 
assist, and so on.
    So I think it would be a reach at this point to see 
anything positive. This, again, begs the question of how, how 
do we pursue 
collectively the issues that we are raising with the Chinese 
Government in a way that is going to make any difference 
whatsoever? I would be very interested if anyone has any bright 
ideas on that score.
    Ms. Scholte. I do not know if I have a bright idea, but I 
was going to say, just to echo what Joel was talking about, and 
I think everyone on this panel would agree, the irony of the 
Olympics was Beijing won the Olympics with a promise that China 
was going to improve on human rights. The irony of that was, 
the situation got worse for all the groups that we are 
concerned about.
    The Chinese Government actually told the UNHCR that the 
group of North Korean defectors that had gotten asylum and were 
being protected by the UNHCR before the Olympics, that they 
will not let these North Koreans go to South Korea unless the 
UNHCR promised that it will not bring in any more North Koreans 
until after the Olympics, and putting the UNHCR in a terrible 
position, because that is their whole job, to take care of 
refugees. We were able to get this out and get some Members of 
Congress to write letters, and that group eventually got out.
    In fact, three of them came to the United States. But after 
that, we had two families that were ready to seek asylum with 
the UNHCR and we waited until after the Olympics because we 
thought maybe things will get better. The UNHCR actually told 
us it was actually worse after the Olympics. It was horrible 
before the Olympics. So, I see no improvement. This continues 
to be a terribly difficult situation.
    Ms. Oldham-Moore. Okay. Thank you.
    We are going to turn to the audience. If you would like to 
ask a question, please raise your hand and I will call on you. 
Anybody interested? Patricia Kim, our intern, please.
    Ms. Kim. I've heard that North Korean refugees also cross 
the border into Mongolia, but I haven't heard too much 
information on that route. Is the Mongolian route to South 
Korea just as popular as the Chinese route? Could you explain 
what the situation is like at the Mongolian border.
    Ms. Oldham-Moore. Patricia Kim just asked whether North 
Koreans go into Mongolia as a preferred route and whether that 
is a good route or not.
    Ms. Scholte. Yes. That was a good route for a time. But 
what happened is, it was actually a year and a half ago, the 
Chinese tried to shut that route down. The reason why you do 
not hear a lot about the refugees getting out of Mongolia is 
because the Mongolian Government has a very good relationship 
with North Korea and they don't want to rock the boat. But as 
long as the refugees get there, I don't know of any case where 
the Mongolians have forced them back. But they like to do it 
very quietly because they want to keep good relations with 
North Korea.
    But I want to say, if anybody has not seen this movie, 
you've got to see the movie ``Crossing'' because it's based on 
true stories. It's an incredible movie. Actually, the escape 
route they used in that movie was Mongolia, but it's a very 
dangerous route getting out. Actually, the southern routes are 
actually safer, but all of them are dangerous.
    Mr. Charny. It should just be stressed for those of you who 
are not up on your northeast Asia geography, there is no direct 
access from North Korea to Mongolia, so, you still have to go 
through China. Even if Mongolia is the destination, you are 
subject to the risk of arrest and deportation simply by 
traveling through China to get to Mongolia.
    Ms. Oldham-Moore. Steve Marshall?
    Mr. Marshall. I'm Steve Marshall. I work for the 
Congressional-Executive Commission on China and I cover the 
Tibet issue. I thank all of you for your testimony today, and I 
have a question for Mary Beth Markey.
    This is a very basic question but I think it goes right to 
the heart of the matter: why are all these Tibetans traveling 
illegally across the border? The question is, do they have an 
option to travel legally? My understanding would be that they 
would need possibly four documents to travel legally to, say, 
get to India for personal, religious, cultural purposes: (1) a 
Chinese passport; (2) permission to use that passport for exit 
and reentry; (3) visas to travel through Nepal, and (4) to 
enter India. What options do they have to do this legally and 
acquire these documents? Thank you.
    Ms. Markey. It is possible for Tibetans to get Chinese 
passports and to travel on Chinese passports. It is not 
possible across the board and in every circumstance and, 
especially since the spring 2008 demonstrations began, it is 
nearly impossible for Tibetans to get passports to travel 
abroad.
    Those Tibetans that have been able to attain passports 
usually use them to enter Nepal and leave them there. Any 
indication on a Chinese passport that you, as a Tibetan, have 
been to India will be treated with tremendous suspicion on 
return to China. So, in fact, we do know that there are many 
cases where Tibetans may have passports, but they certainly 
leave them behind in Nepal. Did I answer your question, Steve?
    Mr. Marshall. [Off microphone].
    Ms. Markey. Well, actually I don't know. Generally Tibetans 
do not use any legal means, any legal documentation from Tibet 
for the entire route through Nepal and onward to India. When 
they arrive in Kathmandu they present themselves to the UNCHR 
as having no documents. They certainly, again, would not use a 
document to go to India.
    There is a specific population, a very small part of the 
Tibetans walking out of Tibet over the Himalayas, who, 
understandably, would have an interest in going back that way. 
These Tibetans come out, for example, to get a blessing from 
His Holiness the Dalai Lama or to receive a special teaching, 
or perhaps to bring their children to the Tibetan refugee 
schools in India and then leave their children there and go 
back.
    Mr. Marshall. [Off microphone].
    Ms. Markey. They would not have good prospects for getting 
travel documents now because of the intense security across 
Tibet, neither would they want to use those documents if they 
provided evidence that they had gone to India and the come back 
to Tibet, because then they would expose themselves to 
harassment.
    Ms. Oldham-Moore. Kara Abramson, and then the gentleman in 
the back.
    Ms. Abramson. I'm Kara Abramson with the Congressional-
Executive Commission on China. I'd like to ask Ms. Markey and 
Dr. Roberts to please discuss conditions for family members of 
people who leave China and seek asylum elsewhere. Do these 
family members who remain inside China face any repercussions, 
and are they able to apply for derivative refugee status and 
eventually leave China to join their relatives who have already 
left?
    Ms. Oldham-Moore. A quick repeat on the question for those 
in the back. Ms. Abramson asked about the status of families 
left behind in terms of Uyghurs and Tibetans who leave, and 
whether those family members who stayed behind face any 
negative repercussions, and also did they get any derivative 
refugee status later, can they obtain it.
    Mr. Roberts. I guess the answer is that it is not a very 
good situation. The most visible case of this concerning 
Uyghurs involves Rabiya Khadeer, who is a refugee in the United 
States. Several of her family members have been arrested, not 
overtly on charges that she had left the country as a political 
refugee, but I think it's fair to say that that certainly 
contributed to their arrests.
    In general, it's my impression that once you've become a 
refugee it's very difficult to establish contact, direct 
contact, with family members. The only possible way might be if 
they were to meet in a third country. Unfortunately for 
Uyghurs, while it used to be fairly easy to get legal travel 
documents to go from Xinjiang to central Asia, which was a 
place where people could meet, now that has become much more 
difficult.
    As the case I mentioned about the Canadian citizen who was 
extradited while visiting Uzbekistan points out, it is not even 
a safe option necessarily for refugees to go to central Asian 
states. Many of the Uyghur refugees who are in the United 
States, in Europe, and other countries, the Chinese have cases 
out against them, politically motivated criminal cases. So if 
they land in a country that is practicing this type of 
extradition, they could be in serious problems.
    Ms. Markey. Generally families are placed under suspicion 
and can be harassed if the authorities know that other family 
members have left Tibet to go to India. It has been common 
practice for Tibetans to send their children to schools run by 
the Central Tibetan Administration, the Tibetan government in 
exile, in India. Tibetan cadres have been required to withdraw 
their children from Tibetan schools in India or face 
termination if they work for the government.
    Most Tibetans who live in India or Nepal, long-staying 
Tibetan refugees who arrived before 1989, have resident status. 
In Nepal, it is no longer possible for new arrivals from Tibet 
to get resident status. In India, it is possible to even get 
citizenship, but it is a long and cumbersome process and I have 
heard accounts from some Tibetans that it is even impossible to 
get. In Nepal, some things are possible in the margins, but 
Tibetans are generally in a vulnerable position and resident 
status does not even convey basic rights.
    Tibetans have been able to get visas to come to the United 
States. Some apply for political asylum and there are family 
reunification possibilities in the United States. But again, 
these days it is very difficult for Tibetans to come out of 
Tibet. If their families were in India or even Nepal, family 
reunification would be much easier. I don't know of any 
circumstances of family reunification from Tibet. I could 
imagine that if somebody got asylum in the United States and 
their family was in Tibet, their family members may try to 
leave Tibet to go to India and then try for family 
reunification from there.
    Ms. Oldham-Moore. Thank you.
    Yes, sir?
    Mr. Rendler. Thank you. I'm Jack Rendler from Amnesty 
International. I'd like to take a crack at Joel's question 
about how to encourage the Chinese to accept more North Korean 
refugees and not to turn them back.
    Wouldn't you think, Joel, that you, Joel Charny, could 
convince the Chinese that stability on the Korean peninsula 
would be enhanced by allowing more people to leave North Korea? 
Wouldn't the Chinese have an interest in people who are either 
starving to death or dissident, to not be in North Korea, to 
leave? I could picture tactically, say, you write an article 
that makes that case, and then we, Amnesty International, would 
take it around to Chinese Embassies and consulates around the 
world and say, what do you think about this, doesn't this make 
sense?
    The other thing I wondered about is the issue of 
trafficking. It would seem to me that of all the issues on 
human rights abuses that come up in discussions around North 
Korean refugees, that trafficking might be the issue that the 
Chinese would be most sensitive to. Wouldn't it be in their 
interest to give some kind of status to women who are coming 
out of North Korea into China so that they wouldn't be so 
susceptible to trafficking?
    Ms. Oldham-Moore. Did you have those questions? Yes. Great.
    Mr. Charny. So Jack tried to basically respond to my 
challenge about, how can we move the Chinese on this issue, the 
suggestion being to argue that it is in China's security 
interests because it would lead to a more stable North Korea to 
allow people who are suffering and people who are politically 
persecuted to move into China, thereby relieving pressure on 
the North Korea state.
    I don't know. I mean, I think it would be--whether the 
Chinese would respond to that argument, I'm really not sure. We 
had a good discussion yesterday at the Heritage Foundation, and 
I think a good point that was made there was, first of all, 
China has a longstanding security relationship with North Korea 
that they are fundamentally trying to maintain, and furthermore 
they need, and want, North Korea as kind of a buffer between 
any encroachment from the south and the China border.
    So would the Chinese buy the argument of more people moving 
into China increasing the stability of North Korea? I'm not 
sure that they would. I think the Chinese also are, as Suzanne 
referred to, either genuinely, or they just use it as an 
excuse, afraid of kind of a massive outflow into China that 
would change the demographics in that part of the country. So, 
I don't know. I need to mull that over. Maybe there is 
something there.
    I should have mentioned the trafficking angle. I actually 
think that is one of--I would like to think that that's 
potentially a promising way to approach this. I think a refugee 
rights approach is 
basically not going to work, but many countries in the world, 
including totalitarian ones, are nominally on side on this 
whole question of trying to limit the trafficking of women. 
Trafficking of women, I think, has managed to emerge in the 
international dialogue as something that everyone should be 
against. So that is our big advantage in this case.
    Now, I don't know. Being a refugee expert and not a 
trafficking expert, I don't know the international institutions 
that would be best to take this up with the Chinese, but I 
would like to believe that that would be a promising angle, 
that you would go to the 
Chinese and say, look, you have got a big problem with illegal 
trafficking of women, this is both wrong and damaging your 
international reputation, can we start discussions about how to 
limit that, they might be open to that.
    Ms. Oldham-Moore. Let me just comment. CECC's last report 
has a big section on trafficking and China's response, and the 
government has done many positive steps in terms of 
enforcement, offering victims' services. So I don't think in 
that regard that there's an all-negative story there, so that 
might be a good angle.
    Ms. Scholte. I just wanted to make a comment, too, about 
the argument about--I think I mentioned that China has an 
unfounded fear that if it did show compassion to the refugees, 
that they may be flooded with refugees. I wanted to speak to 
that.
    First of all, if refugee flows out of North Korea would 
have had that effect--I think they fear that it would cause the 
regime to collapse in North Korea. We have to remember that 
during the famine, at least half a million people crossed the 
border and 3 million people died, and it didn't affect Kim Jong 
Il at all. So this idea that this would collapse the regime if 
more refugees tried to flee is unfounded, but I think China has 
that mind-set.
    The other thing that people have to remember is the 
refugees who are leaving North Korea don't want to leave North 
Korea. I've been working on this issue since 1996. I have never 
met a North Korean that didn't want to go back to North Korea. 
They left Kim Jong Il, they left that regime. So what China is 
doing is prolonging this problem because if it did show some 
compassion for the refugees it would actually create subtle 
pressure on the regime to reform and to open up if they did 
show some compassion.
    But also in the long term it would be an economic benefit 
to China for North Korea to open up because that area of China 
is depressed, that border region. There is going to be so much 
that North Korea needs to build that country. I mean, they 
don't even have electricity or roads, or very poor roads, in 
most of North Korea. They need all kinds of things, all kinds 
of infrastructure that China could actually help with.
    So I think we need to do what we can to make China realize 
that it would be--as Jack was saying, to make them realize that 
it would actually be a long-term benefit to China. We know this 
regime is going to go down eventually and the Chinese ought to 
be looking toward the future.
    Ms. Oldham-Moore. Thank you.
    Any folks from the audience? Yes, ma'am. Please.
    Audience Participant. I would actually prefer that my name 
not be on the record. But first and foremost, I just wanted to 
thank the panel, as well as all the North Koreans and the 
advocates in this room, because I think that really your 
presence and your stories and your bravery--it's really one of 
the primary lights of hope, I think, regarding this issue. 
[Statement made in foreign language].
    Second, I wanted to respond to the Amnesty International 
point. I think that one issue that isn't really discussed 
explicitly is that China has a very long-term policy and their 
vision, I think, is not only an unfounded fear of the refugees 
coming across, but also an unfounded fear--or perhaps a founded 
fear--of reunification in the Korean peninsula and the power 
dynamics that will result because of that. I think that is 
something that is just not really addressed.
    I have two questions. The first, is whether or not 
international organizations and the UN have tried to focus 
recommendations to China, not sort of on the broad proactive 
measures that should be taken, but on sort of the passive 
measure that should be taken just to allow the UNHCR to move to 
that northern frontierland or the borderland. I think that just 
focusing on that specific issue might be perhaps a little bit 
more compelling because it makes an easier decisionmaking 
process for the government.
    The second question is what the U.S. public and the public 
around the world can do to try and create more awareness about 
this issue. I know that with regard to a lot of other crises in 
the world in recent years, the Web has provided incredible 
public awareness and action. I just wonder whether or not there 
are certain things that the U.S. public should take into mind, 
and if you have any suggestions.
    Ms. Oldham-Moore. Thank you.
    Joel? Suzanne?
    Mr. Charny. Well, on the--I think there have been sustained 
efforts to try and get the Chinese to change their mind about 
allowing UNHCR access, but the Chinese just continue to rebuff 
them. One idea that we had--and I don't know enough about how 
UNHCR actually functions internally, and this is probably----
    Ms. Oldham-Moore. Oh. Yes, you do.
    Mr. Charny [continuing]. This is probably, again, 
completely infeasible, or even naive, but it seems to me--for 
China, it's a privilege. I mean, one of the--this extends 
across the board, I think. I mean, China has been brilliant, as 
part of this soft power, of insinuating itself into mainstream 
international institutions without, in many ways, fundamentally 
improving their practice on issues that we care about.
    So one of the points I made three or four years ago was, 
how does China get to be on the UNHCR Executive Committee if 
they're not allowing UNHCR to perform their fundamental 
obligation with North Korean refugees? I mean, shouldn't that 
be just a basic contradiction? Everyone's nodding. It's 
obvious. Okay. Well, given that basic contradiction, is there 
any way to work that within the UNHCR Executive Committee? But 
again, this is where I get discouraged, because China just has 
so much leverage right now.
    The United States is simply not going to stand up in Geneva 
at the UNHCR Executive Committee and ask China tough questions 
about the treatment of North Korean refugees. Why? Because we 
are on the hook for, I don't know, how many trillion in terms 
of the Chinese buying our treasury bonds, and so on? There's an 
interlocking economic dependence at this point that I think 
really weakens the United States in terms of its overall 
leverage with China and getting them to change their behavior.
    So then--and Suzanne will remember this. One thing I used 
to get a little bit annoyed about, was everyone was kind of 
blaming UNHCR for the fact that they couldn't get up to the 
northeast. No. Let's blame the member states of the United 
Nations for not backing UNHCR in their drive to get up there. 
You can't ask UNHCR to perform political miracles. So again, 
I'm sorry to be kind of depressing, but it's kind of, this 
issue has been stuck.
    Efforts have been made, and unfortunately they haven't 
really gotten anywhere. Suzanne, I think, is the expert on 
mobilizing. But overall, I think there is just so much more 
information now about the situation, both inside North Korea 
and at the border. I think what we haven't found is the spark 
to really make this a public international issue. It's much 
more known than it was 10 years ago, but as we discussed 
yesterday at Heritage, it is hardly the Darfur of Asia in terms 
of public awareness.
    So, any ideas that people have to make this a true 
international global cause--it's nowhere near as recognized as 
Tibet, for example. I think if we were ranking the causes, 
Tibet would be number one by far. I think that relates 
primarily to the visibility of the Dalai Lama. North Korea is 
then way, way, way down on the scale, and I think the Uyghur 
situation is virtually unknown.
    Ms. Oldham-Moore. I agree with that assessment.
    Mary Beth?
    Ms. Markey. I would like to make one comment, a couple of 
comments, actually. First of all, I think that you were 
absolutely right, Joel, when you said that the problem is with 
the refugee issue itself. This is where I was trying to suggest 
commonality between the Korean refugee issue and the Tibetan 
refugee issue. China has a problem with the very definition of 
refugees. They do not want people to believe that Tibetans are 
fleeing because they have a credible fear of persecution, that 
their own homeland is inhospitable to them because of China's 
Tibet policy. The Chinese are working very hard to turn that 
perception around and belittle the humanitarian and human 
rights issues that compel people to leave. China would like the 
world to believe that all these refugees are simply economic 
migrants who are illegally sneaking around looking for 
opportunity.
    I think they see this as a problem for Korea, too, which is 
an ally of theirs. So, it is the political issue for them 
linked to failed policies and oppression. The refugee issue is 
much harder for China to acknowledge as a legitimate 
international concern than the issue of trafficking would be. I 
agree that engaging China on trafficking would be a very good 
inroad to providing help to the Koreans, to Korean refugees, in 
fact.
    In response to the comment about the attention that Tibet 
is getting, I have been following this issue for a very long 
time, and I can tell you that it's getting a great deal of 
attention primarily because China is putting a great deal of 
attention on Tibet right now. It used to be that Chinese 
diplomats would run around capitals screeching about Taiwan. 
That has gone down a great deal, primarily because of more 
accommodating politics in Taiwan as a result of the success of 
the KMT in the last elections.
    Now Chinese diplomats are going around the Hill and call on 
the administration, and they raise their problem with Tibet. 
They are unhappy with U.S. policy on Tibet, and on, and on, and 
on. I assume they don't come and harangue President Obama about 
their Korean refugee problem. So I think there's a priority 
there within China's own internal thinking. Obviously they 
think that they can handle this Korean refugee problem.
    Advocates on behalf of Korean refugees need to make it 
clear that China is not handling it in the right way, and I 
agree that an approach through the trafficking issue may be the 
right way to go.
    Ms. Oldham-Moore. Suzanne? Thank you, Mary Beth.
    Ms. Scholte. I want to make a couple of points to that 
question. It's been very frustrating for all of us in the North 
Korean human rights movement to get more attention to this 
because we do think it's the worst human rights tragedy going 
on by far, because we're talking about 3 million people who 
died just from the famine alone, and all of those were needless 
deaths when you look at the humanitarian assistance that could 
have been provided to them; 200,000 people in political 
prisoner camps, anywhere from 30,000 to 200,000 to 300,000 
refugees in China.
    But I want to respond. One of the difficulties that we have 
had is that we don't have a high-profile person. There's no 
movie stars, no Richard Gere or Mia Farrow--and God bless them 
for what they're doing to help raise the cause of the Darfur 
and the Tibet issue. And one of the things we face is the lack 
of access. We know there are political prison camps, but all we 
have is eyewitnesses to tell us about it and satellite photos.
    To demonstrate the difficulty of reporting on the refugee 
and the trafficking issue--Laura Ling and Anna Lee--where are 
they right now, the two reporters that were trying to cover 
this issue in China? This just shows the collusion between 
North Korea and China. The North Korea border guards went into 
China, took those two women at gunpoint, and they are in 
Pyongyang now facing trial for espionage because they were 
trying to report on the trafficking of North Korean women. So 
that is one of the other problems, the lack of access.
    But as far as what we could do to create awareness, what 
are you doing tomorrow? Noon, the Chinese Embassy, we are 
having a protest on behalf of the North Korean refugees. Now, 
I'm not a diplomat, I'm an NGO person, so I can talk about 
these things. But we're having a protest against the 
repatriation because ``Hu Jintao and Kim Jong Il are side by 
side in genocide.'' That's the theme for tomorrow.
    But I also want to mention very significant--how many of 
you have heard of Charter 08?
    Ms. Oldham-Moore. Hopefully many of them.
    Ms. Scholte. Okay.
    Ms. Oldham-Moore. We have a lot of analysis on our Web site 
on Charter 08. But, please.
    Ms. Scholte. I was going to say, Charter 08. This is an 
incredible thing, 303 Chinese intellectuals, lawyers. They put 
their lives on the line to sign Charter 08, this document that 
lays out a path for China, calling for an end to the Communist 
Party. And God bless them, because these same people signed a 
letter back before the Olympics, basically opposing the 
Olympics as Chinese citizens, and they mentioned all our 
causes. They even mentioned the North Korean refugees.
    So, we need to do more to support the signers of Charter 08 
and work together. I know many of us--I see Alim from the 
Uyghurs. Many of us have tried to put together a coalition of 
all our groups where the source of all our problems is Hu 
Jintao, and we need to all band together to do more together 
about this China issue, in solidarity with the Chinese citizens 
that are putting their lives on the line, because they are with 
us.
    Ms. Oldham-Moore. Thank you.
    Toy, do you want to ask a question?
    Mr. Reid. I have a question for the panelists. Feel free to 
chime in as you like. Starting with North Korea, I know China 
has occasionally appealed to a bilateral border agreement that 
it has with the North Koreans, and said essentially, we can't 
do anything about these refugees because this bilateral 
agreement says we will send them back if they come here. Now, 
the issue then becomes, there's a clear conflict between this 
bilateral agreement and the 1951 Convention on Refugees that 
China has signed.
    So, Joel, if you could speak to that particular issue and 
whether you think there is genuine concern on China's part in 
wanting to show respect for this particular bilateral 
agreement, or whether it is just used as a convenient 
justification for their repatriation policy.
    Likewise, in the case of the Tibetans and the Uyghurs, Mary 
Beth mentioned a bilateral agreement that is in the works 
between China and Nepal. Could you please talk a little more 
about that? And with regard to the central Asian states that 
border China, Sean, do you see a pattern that is similar? Are 
there bilateral agreements in place? Are they being drafted?
    Do such agreements contain provisions that the Chinese 
Government, or the Kazakhstan Government, or the Nepali 
Government, may appeal to as taking precedence over 
international law? Thanks.
    Ms. Oldham-Moore. Great.
    We only have time for one other question after this, so 
let's do a lightening round, as they say on ``Meet the Press.''
    Mr. Charny. Well, I'll be brief: I think it's bogus. I 
think to hide behind an agreement with the state that's 
violated the human rights of its citizens to the degree that 
North Korea has--and again, I insist that the Chinese know 
every detail of the horrors that the North Korean people go 
through--to say, oh, we cannot honor our international 
obligations because of this agreement, I mean, it's 
preposterous, and I think the Chinese know it is preposterous.
    Ms. Oldham-Moore. Mary Beth? There's a lot to say on this, 
I know.
    Ms. Markey. We have seen China, over the years, pulling 
Nepal closer and closer into its orbit through various 
enticements, and we know that China is very serious about 
stopping the Tibetan refugee flow. It is an embarrassment. And, 
as I said at the outset, as far as international treaties go, 
China will implement those agreements or laws that it is so 
inclined to implement, and it will ignore those that it is not. 
I don't know in the pecking order which supersedes which, but I 
think that if there's an extradition treaty in place, then, in 
this case, China will readily point to it and say, ``it's the 
law.''
    Ms. Oldham-Moore. Sean?
    Mr. Roberts. Well, it's been my impression that China has 
historically deliberately left a lot of disputed borders for 
various reasons, they can use politically. In central Asia, 
that was really the major ``carrot'' that got everybody into 
the Shanghai Cooperation Organization in the mid-1990s. The 
Chinese were very interested in the central Asian states 
limiting Uyghur political activity on their territories, and 
the central Asian states wanted these disputed borders resolved 
because they saw them as something that the Chinese could use 
to encroach on their territory eventually and they just wanted 
it resolved. So, in fact, in central Asia, most of those 
borders have now been resolved, but to the detriment of the 
situation of Uyghurs in those countries.
    Ms. Oldham-Moore. Thank you.
    One last question from the audience. Anybody? Yes, sir.
    Mr. Marshall. [Off microphone].
    Ms. Markey. It is complicated. I think your question 
encapsulates all of the variables that come together. Yes, 
there is 
enhanced security across Tibet, making movement around the 
Tibetan plateau much more difficult. We had anticipated, in 
fact, that there would be a rise in the numbers of Tibetans who 
would want to come out because they were implicated in the 
demonstrations and so on. So the fact that there has not been 
this rise is disturbing. It means that the crackdown is very 
effective. It also suggests that people are postponing their 
flight until the situation is determined to be less heated.
    I think one element we haven't talked about is the guides. 
Most Tibetans come out of Tibet in large groups led by a guide. 
It's dangerous for those guides if they're caught. They 
sometimes are caught and they're treated very harshly. If 
they're going to take the risk to bring over 20 people when 
they're used to taking a risk to bring over 200, then the 
guides will also hold back. So a lot of these elements are 
coming together, but it is alarming and I think we should be 
looking at it.
    Ms. Oldham-Moore. Thank you.
    I just want to thank our panelists. These are very 
complicated and difficult topics we have looked at today. We 
will have a transcript of this proceeding up on our Web site in 
a few weeks.
    I want to thank Joel Charny, Suzanne Scholte, Mary Beth 
Markey, and Sean Roberts, and also Ms. Bang and Ms. Kim, for 
your courage and presence here today, and Mr. Steve Kim. Thank 
you so much.
    Please come back. We're going to have, again, May 22, in 
this room, a roundtable on democracy, the concept of democracy 
in China. Then June 4, we're having a Commission hearing on 
Tiananmen's 20th anniversary.
    Thank you so much for being here today. I appreciate it.
    [Applause.]
    [Whereupon, at 11:51 a.m. the roundtable was adjourned.]

                                 <all>

</pre></body></html>
